Audit Report




OIG-11-046
Management Letter for the Audit of the Office of the Comptroller
of the Currency’s Fiscal Years 2010 and 2009 Financial
Statements


December 07, 2010




Office of
Inspector General
Department of the Treasury
This report has been reviewed for public dissemination by the Office of
Counsel to the Inspector General. Information on pages 2 through 4 requiring
protection from public dissemination has been redacted from this report in
accordance with Exemption 2 of the Freedom of Information Act,
5 U.S.C. Section 552.
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            December 07, 2010



            MEMORANDUM FOR JOHN WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                  Michael Fitzgerald
                                   Director, Financial Audits

            SUBJECT:               Management Letter for the Audit of the Office of the
                                   Comptroller of the Currency’s Fiscal Years 2010 and 2009
                                   Financial Statements

            I am pleased to transmit the attached management letter in connection with the
            audit of the Office of the Comptroller of the Currency’s (OCC) Fiscal Years 2010
            and 2009 financial statements. Under a contract monitored by the Office of
            Inspector General, GKA, P.C. (GKA), an independent certified public accounting
            firm, performed an audit of the financial statements of OCC as of September 30,
            2010 and 2009 and for the years then ended. The contract required that the audit
            be performed in accordance with generally accepted government auditing
            standards; applicable provisions of Office of Management and Budget Bulletin No.
            07-04, Audit Requirements for Federal Financial Statements, as amended; and the
            GAO/PCIE Financial Audit Manual.

            As part of its audit, GKA issued and is responsible for the accompanying
            management letter that discusses certain matters involving internal control over
            financial reporting and its operation that were identified during the audit, but were
            not required to be included in the auditor’s reports.

            In connection with the contract, we reviewed GKA’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where GKA did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789 or a member
            of your staff may contact Ade Bankole, Manager, Financial Audits at
            (202) 927-5329.

            Attachment
                 gka, P.C.                                       Certified Public Accountants | Management Consultants




                 OFFICE OF THE COMPTROLLER OF THE CURRENCY
                             MANAGEMENT LETTER
                                FISCAL YEAR 2010


                                             October 29, 2010




                                                         Member of the American Institute of Certified Public Accountants

1015 18th Street, NW · Suite 200 · Washington, DC 20036 · Phone: 202-857-1777 · Fax: 202-857-1778 · WWW.gkacpa.com
gka, P.C.                                                     Certified Public Accountants | Management Consultants



1015 18th Street, NW
      Suite 200           Inspector General, Department of the Treasury, and
  Washington, DC          the Comptroller of the Currency:
        20036
                          We have audited the balance sheet as of September 30, 2010 and the related
  Phone: 202-857-1777     statements of net cost, changes in net position, and budgetary resources for the
   Fax: 202-857-1778
Website: www.gkacpa.com   year then ended, hereinafter referred to as “financial statements”, of the Office
                          of the Comptroller of the Currency (OCC) and have issued an unqualified
                          opinion thereon dated October 29, 2010. In planning and performing our audit
                          of the financial statements of the OCC, we considered its internal control over
                          financial reporting in order to determine our auditing procedures for the
                          purpose of expressing our opinion on the financial statements and not to
                          provide assurance on internal control. We have not considered the internal
                          control since the date of our report.

                          During our audit we noted certain matters involving OCC’s information
                          technology general controls that are presented in this letter for your
                          consideration. The comments and recommendations, all of which have been
                          discussed with the appropriate members of OCC management, are intended to
                          improve OCC’s information technology general controls or result in other
                          operating efficiencies.

                          OCC management’s responses to our comments and recommendations have
                          not been subjected to the auditing procedures applied in the audit of the
                          financial statements and, accordingly, we do not express an opinion or provide
                          any form of assurance on the appropriateness of the responses or the
                          effectiveness of any corrective action described therein.

                          We appreciate the cooperation and courtesies extended to us during the audit.
                          We will be pleased to meet with you or your staff, at your convenience, to
                          discuss our report or furnish any additional information you may require.




                          October 29, 2010




                                                               Member of the American Institute of Certified Public Accountants
                       Office of the Comptroller of the Currency
                   Management Letter Comments and Recommendations
                            Year Ended September 30, 2010

Improvements Needed in Information Technology General Controls over OCC’s Financial
Systems (Repeat Condition).

In our fiscal year (FY) 2009 audit, we identified weaknesses in the areas of entity-wide security
management and contingency planning, access controls, and configuration management. We
reported these weaknesses to management in a management letter. In FY 2010, OCC made
significant progress in resolving these weaknesses, as evidenced in OCC’s Plan of Actions and
Milestones (POA&M) and our verification of correction of many of the prior year issues. Two
(2) out of five (5) issues identified in the prior years remain partially unresolved. There were no
new findings for FY 2010.

The weaknesses noted in OCC’s IT general controls are noted and discussed below.

(A) Security Management and Contingency Planning

An entity wide information security management program is the foundation of a security control
structure and a reflection of senior management’s commitment to addressing security risks.

Contingency planning safeguards against losing the capacity to process, retrieve, and protect
information maintained electronically, which significantly affect an agency’s ability to
accomplish its mission.

1. There are weaknesses in the OCC’s process for updating its Certification and
   Accreditation (C&A) documentation.

As noted during our prior year audit, there are weaknesses in the OCC’s process for updating its
Certification and Accreditation (C&A) documentation. Specifically, we noted the following:
      The Network Infrastructure General Support System (NI GSS) Information Technology
       Recovery Plan (ITRP) dated July 21, 2008 has not been updated to reflect the current NI
       GSS environment. Specifically, we noted the following:
           o There is no evidence that the NI GSS ITRP has been updated to reflect the lessons
             learned from the recent ITRP disaster recovery tests that was performed in August
             2009.
           o The NI GSS ITRP, July 21, 2008, Pg. 17, paragraph 1, states that planned
             migration to                                        is planned for 2007.
             However, the          migration has been completed and the ITRP has not
             been updated.
           o NI GSS ITRP states that, pg. 17 states, “IBM Compatible
                          Mainframe running             Operating System is planned for
             decommission by 2008”. However, it is not clear from our review of the ITRP if
             this has occurred.



                                                2
                       Office of the Comptroller of the Currency
                   Management Letter Comments and Recommendations
                            Year Ended September 30, 2010

          o NI GSS ITRP: Section 6.32: Pg. 74 states that, “an updated copy of the ITRP is
            distributed quarterly to key personnel including 2 Resident Technical Support
            Specialist in the Southern and Western Districts”. However, we could not confirm
            that this is being done.

      The $MART IT Contingency Plan (ITCP or CP) has not been updated to reflect changes
       to the $MART operating environment. Although the $MART critical applications were
       listed, one application the                   does not reflect the current $MART
       computing environment.                    was upgraded to                       in
       FY 2009.

       While the $MART ITCP was updated to incorporate reference to                             in
       Section 6 (System Description), it still had outdated references to                  in the
       context of references to team representation (page 18, table 7-3), recovery goals (page 25,
       table 15-1), application support team (page A-1, table A-3), required applications (page I-
       4, table I-2), and strategic recovery objectives (page I-20, table I-11). Once notified of
       this issue, OCC management updated the $MART ITCP before the end of our field work.
       Additionally, we noted that OCC was in the process of reviewing and updating the NI
       GSS ITRP.

The OCC Master Security Controls Catalog, states the following:
       “The OCC reviews the contingency plan for information systems (annually) and revises
       the plan to address system/organizational changes or problems encountered during plan
       implementation, execution, or testing.”

Over time, policies and procedures may become inadequate because of changes in threats,
changes in operations or deterioration in the degree of compliance. Failure to update
contingency plans increases the probability that OCC management may not be aware of how
system changes impact the OCC’s ability to recover from disaster situations.

Recommendations:
We recommend that OCC management:

(1) Implement a process to ensure that C&A documentation is updated timely in accordance with
    OCC policy, and approvals are documented on file.

(2) Ensure that the information contained in the C&A documentation is accurate and reflects the
    current system operating and organizational environment.

Management’s Response:
Management concurs with the finding and recommendations. IRM will ensure timely and
accurate updates to C&A documentation by implementing a documented process to review the
status of C&A documentation in TAF (Trusted Agent FISMA). Quarterly artifacts reports will be


                                                3
                      Office of the Comptroller of the Currency
                  Management Letter Comments and Recommendations
                           Year Ended September 30, 2010

generated from TAF and reviewed by the C&A team to ensure all approved versions of the
documentation are posted in TAF.

As described below, the OCC has made or will be making corrections to the two documents
noted by the auditors, NI GSS ITRP and $MART CP.

   Issues with the NI GSS ITRP:
   a. The NI GSS ITRP is not currently up to date due to the departure of the ITRP Manager.
       The NI GSS ITRP is currently being updated. The updated version will include lessons
       learned from this years test. Scheduled completion date: October 31, 2010.

   b. The planned migration to the                                  has been completed. The
      updated ITRP will note the completion of this upgrade and include ITRP-related SAN
      information.

   c. An OCC management decision was made to delay the decommissioning of the IBM
      Compatible                            Mainframe running             Operating System.
      The updated ITRP will note the current operational status of the mainframe and the
      updated ITRP will include other mainframe ITRP information.

   d. The ITRP has not been distributed quarterly to key personnel including 2 Resident
      Technical Support Specialist in the Southern and Western Districts due to the departure
      of the ITRP Manager. The ITRP will be updated annually and will be distributed
      quarterly to key personnel including 2 Resident Technical Support Specialist in the
      Southern and Western Districts.

   Issues with the $MART CP:
   The C&A program approved a new ITCP template in January 2010. As recommended by our
   C&A vendor, this template combined the Business Impact Analysis (BIA) into the ITCP. As
   part of the $MART 2010 Recertification, the $MART ITCP was updated in April 2010
   (Version 4.01, dated 4/21/2010) and has been uploaded to the Audit Fix SharePoint site. The
   BIA is included as Appendix I in the ITCP. The latest information on the $MART
   environment is included in section 6, General System Description/Purpose, page 8 and states
   the use of                            .




                                              4
                       Office of the Comptroller of the Currency
                   Management Letter Comments and Recommendations
                            Year Ended September 30, 2010

(B) Configuration Management

Configuration management policies, plans, and procedures should be developed, documented,
and implemented at the entity wide, system, and application levels to ensure an effective
configuration management process.

2. Users have administrative rights to install personal or public domain software on their
   desktops.

As noted during the prior year audit, although a process for removing and detecting unauthorized
software is implemented as compensating controls, the controls do not fully mitigate the
weakness. Users have administrative rights to install personal or public domain software on their
desktops.

The OCC is in the process of implementing a software tool to remediate this weakness. The
Beyond Trust (BT) Implementation project is currently in testing and is scheduled for complete
implementation by April 2011.

NIST Special Publication 800-53, Recommended Security Controls for Federal Information
Systems, User Installed Software states:

   “Control: The organization enforces explicit rules governing the installation of software by
   users.

   Supplemental Guidance: If provided the necessary privileges, users have the ability to
   download and install software. The organization identifies what types of software downloads
   and installations are permitted (e.g., updates and security patches to existing software) and
   what types of downloads and installations are prohibited (e.g., software that is free only for
   personal, not government, use). The organization also restricts the use of install-on-demand
   software.”

The use of unapproved software by employees could negatively impact processing operations,
introduce harmful viruses, and/or cause the loss of data.

Recommendation:
We recommend that OCC management continue with its plans to implement a software solution
to restrict users from installing and executing unauthorized software on OCC workstations.

Management’s Response:
Management concurs with the finding and recommendation. The OCC has chosen to address
this issue by using Beyond Trust application control software (ACS) to control elevation of
privileges.



                                               5
                        Office of the Comptroller of the Currency
                    Management Letter Comments and Recommendations
                             Year Ended September 30, 2010

The present OCC user desktop configuration allows local administrator privileges for all users.
This means that users are not blocked from installing or downloading unauthorized or potentially
malicious software which can harm computers and networks. OCC is currently implementing an
industry-proven COTS solution, called Beyond Trust Privilege Manager, to provide minimally-
needed privileges for about 95% of the typical users to fully execute their mission applications.
The Beyond Trust tactic will establish a control method and an approval process to prevent these
users from downloading, installing, or executing un-approved software.

At the same time, Beyond Trust will allow the remaining 5% of the Designated IT Specialists
(e.g. Administrators, System Developers, Trained Technical Support Personnel, and Computer
Security Analysts) to have full administrative rights to perform their official duties in supporting
user desktop configurations or protecting application infrastructure.

BeyondTrust is currently undergoing two rounds of testing in the OCC Enterprise Testing Lab
from August 24, 2010 to October 24, 2010. The control application is being readied for field
testing among a group of about 40 pilot users starting in mid-October 2010. If pilot testing is
successful, full implementation of Beyond Trust will expand by phases for all OCC users in
accordance with the following schedule estimates:

   Southern District:         November 15, 2010 to December 15, 2010
   Western District:          December 15, 2010 to January 15, 2011
   Central District:          January 15, 2011 to February 15, 2011
   Northern District:         February 15, 2011 to March 15, 2011
   HQ:                        March 15, 2011 to April 15, 2011




                                                 6
